App. 1
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

No. 19-14347
Non-Argument Calendar
-----------------------------------------------------------------------

D.C. Docket No. 1:19-cv-00251-CAP
WISDOM JEFFERY,
Petitioner-Appellant,
versus
WARDEN,
Respondent-Appellee.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Northern District of Georgia
-----------------------------------------------------------------------

(June 3, 2020)
Before JORDAN, ROSENBAUM, and NEWSOM, Circuit Judges.
PER CURIAM.
Wisdom Jeffery appeals the district court’s denial
of his 28 U.S.C. § 2254 petition for a writ of habeas corpus. The district court granted a certificate of appealability (“COA”) on two issues: (1) whether trial counsel
was ineffective for failing to present alibi testimony;

App. 2
and (2) whether appellate counsel was ineffective for
failing to raise a claim of trial counsel’s ineffectiveness.
After careful review, we affirm the denial of Jeffery’s
§ 2254 petition.
I.
In December 2012, a Georgia state jury convicted
Jeffery of murder and related crimes in connection
with the August 2010 shooting death of his wife,
Corrissa Friends Jeffery. According to the Georgia Supreme Court’s opinion affirming the murder conviction, see Jeffrey1 v. State, 770 S.E.2d 585, 586–87 (Ga.
2015), the trial evidence established the following.
Jeffery and the victim married in 2009, shortly after the victim gave birth to a daughter. The couple’s
relationship was tumultuous. Both Jeffery and the victim had accused each other of infidelity, and Jeffery
was known to have beaten her. After an instance of domestic battery in June 2010, Jeffery was arrested and
then released on bond with the condition that he have
no contact with the victim.
On August 10, 2010, Jeffery contacted the victim’s
grandmother and told her that he believed the victim,
whom he had not seen in a few days, was being unfaithful and their daughter had been conceived by another man. That night, shortly after midnight, police
1

Jeffery’s last name appears alternatively as “Jeffrey” and
“Jeffery” throughout the record. We use the spelling that appears
in his federal petition for a writ of habeas corpus.

App. 3
responded to a 911 call from the victim at her apartment and found Jeffery there. Jeffery was escorted
away from the apartment. Approximately one hour
later, police were again dispatched to the apartment in
response to a second 911 call by the victim.
Although not mentioned by the Georgia Supreme
Court, it appears undisputed that, as recounted by the
state habeas court, during the second 911 call, the
victim said, “Get the hell out the house. Get out the
f—kin’ house, Wisdom. Now. Get out of the house. Get
out.” The recording apparently concludes with the victim asking for an officer to be sent to her apartment,
starting to give her address, and then screaming loudly
before the phone cuts out. This 911 call occurred at
1:58 a.m.
When police arrived several minutes later, they
discovered the victim dead in the bedroom and no one
else present. The victim was shot three times by a
pump-action shotgun. The victim’s uncle testified that
Jeffery owned a shotgun, which the uncle had seen at
the apartment.
At approximately 3:00 a.m., Jeffery appeared at
the home of a friend, Keisha McVick (also known as
Keisha Dean), seeking food and shelter. McVick knew
there had been “an incident” and did not allow Jeffery
into her home, but she did give him food and a cell
phone.
After the murder, Jeffery absconded. He was eventually located in Ohio approximately 18 months later,
following a nationwide manhunt.

App. 4
II.
After the jury verdict, Jeffery filed a motion for
new trial. Before that motion was ruled on, Jeffery obtained new counsel—to whom we will refer loosely as
“appellate counsel”—and filed an amended motion in
August 2013, arguing that trial counsel provided ineffective assistance by failing to request a jury instruction on voluntary manslaughter. Following a hearing,
the trial court denied the motion. Jeffery appealed,
and the Georgia Supreme Court—aside from caveats
not relevant to this appeal—affirmed. See Jeffrey, 770
S.E.2d at 715–19.
Jeffery next filed a petition for a writ of habeas
corpus in state court, alleging ineffective assistance of
trial and appellate counsel. He contended that trial
counsel was ineffective for failing to locate, interview,
and present alibi witnesses at trial, and that appellate
counsel was ineffective for similar failures and for failing to raise a claim of ineffective assistance of trial
counsel at the motion-for-new-trial stage or on appeal.
He further asserted that the failure to present the alibi
testimony at trial resulted in a miscarriage of justice.
The state habeas court held an evidentiary hearing on Jeffery’s petition in May 2017. At the hearing,
Jeffery called multiple witnesses, including Yetunde
Vankole and Bianca Bailey, who placed him at another
location at the time of the murder. The sequence of
events, according to these witnesses, was as follows. At
around 1:30 a.m. on August 11, Jeffery arrived at the
home of Elite Noel. Jeffery spoke with several women

App. 5
outside the home and, after borrowing a phone to make
a call, requested a ride to another neighborhood, where
McVick lived. Vankole agreed and drove him to that location accompanied by Bailey and two others. Vankole
testified that they left at around 1:40 a.m. and arrived
twenty minutes later. Bailey was less sure of the timing but offered similar testimony as Vankole. In other
words, Vankole and Bailey’s testimony placed Jeffery
away from the victim’s apartment at the time of the
second 911 call at 1:58 a.m. Both Vankole and Bailey
were unaware of the timing of the murder until 2015
or 2016, when they spoke with Jeffery’s post-conviction
attorney.
Trial and appellate counsel also testified at the
hearing. According to trial counsel, Jeffery told counsel
that he had received a ride from some individuals at
Noel’s house on the night of the murder. But trial counsel was unable to reach Noel, Jeffery did not identify
the individuals who had given him a ride, and
“[n]obody else knew who these people were.” Trial
counsel further stated that he had “asked everyone
that [he] could reach and talk to” whether they were
“with Wisdom during” the period around when the
murder occurred, but only McVick stated that she had
seen him.
Appellate counsel testified that he was not aware
of any potential alibi witnesses until after he stopped
representing Jeffery. Appellate counsel did not have
specific memories about several aspects of his representation of Jeffery, deferring to what was in writing
in his case file, but he was certain that neither Jeffery

App. 6
nor others brought to his attention the names of potential alibi witnesses. He testified that “no one ever told
me that there were potential, critical witnesses in this
case that should have been used as an alibi or anything
else.”
The state habeas court denied Jeffery’s petition.
Addressing appellate counsel first, the court credited
his testimony that he was not informed of the names
of the purported alibi witnesses and concluded that he
did not render ineffective assistance by failing to call
alibi witnesses he was not aware of. Further, the court
concluded that, even if appellate counsel were aware of
these witnesses, their testimony would not have corroborated an alibi for Jeffery in light of other evidence
at trial. Turning to trial counsel, the court found that
this claim was procedurally defaulted under O.C.G.A.
§ 9-14-48(d), because it was not timely raised post-trial
after Jeffery obtained new counsel and Jeffery had not
established either cause or prejudice to excuse the default based on ineffective assistance by appellate counsel.
Following the Georgia Supreme Court’s denial of
his application for a certificate of probable cause to appeal, Jeffery filed a § 2254 habeas corpus petition in
federal court. A magistrate judge prepared a report
recommending that Jeffery’s § 2254 petition be denied. Without addressing the procedural-default ruling, the magistrate judge concluded that trial counsel
was not ineffective for failing to present the testimony
of witnesses that he could not locate after a reasonable
investigation, and that appellate counsel was not

App. 7
ineffective for failing to call witnesses about which he
was never informed. Over Jeffery’s objections, the district court adopted the magistrate judge’s recommendation and denied the § 2254 petition. The court
granted Jeffery COAs on his claims.
III.
We begin with Jeffery’s claim that trial counsel
was ineffective for failing to investigate and present alibi witnesses at trial. The state habeas court concluded
that this claim was procedurally defaulted under
O.C.G.A. § 9-14-48(d). The district court, however, did
not address the procedural-default ruling and denied
the claim on the merits. Although it appears this decision to bypass the procedural-default ruling was permissible, see 28 U.S.C. § 2254(b)(2) (“An application for
a writ of habeas corpus may be denied on the merits,
notwithstanding the failure of the applicant to exhaust
the remedies available in the courts of the State.”), we
limit our analysis to the grounds stated in the state
habeas court’s ruling.2

2

To the extent necessary, we sua sponte expand Jeffery’s
COA on this claim to include the procedural question of whether
this claim is procedurally defaulted. See Harris v. Comm’r, Ala.
Dep’t of Corr., 874 F.3d 682, 688 (11th Cir. 2017) (sua sponte expanding a COA “to include whether the district court was correct
in its procedural default ruling”); McCoy v. United States, 266
F.3d 1245, 1248 n.2 (11th Cir. 2001) (stating that COAs encompass “procedural issues which must be resolved before this Court
can reach the merits” of the underlying claims).

App. 8
Whether a claim is procedurally defaulted is a
mixed question of fact and law that we review de novo.
Harris v. Comm’r, Ala. Dep’t of Corr., 874 F.3d 682, 688
(11th Cir. 2017). A claim is procedurally defaulted
where the state court applies an independent and adequate ground of state procedure to conclude that the
petitioner’s federal claim is barred. Owen v. Sec’y, Dep’t
of Corr., 568 F.3d 894, 908 (11th Cir. 2009).
Here, the state habeas court applied Georgia’s procedural default rule, § 9-14-48(d), which provides an
adequate and independent state ground for denial of a
habeas claim. Ward v. Hall, 592 F.3d 1144, 1175–76
(11th Cir. 2010). This rule states that, absent a showing of cause and prejudice or a miscarriage of justice,
habeas corpus relief shall not be granted in connection
with any claim that was not timely raised in accordance with Georgia procedural rules. O.C.G.A. § 9-1448(d). This includes any claim of ineffective assistance
of trial counsel not raised on appeal where the petitioner had new counsel after trial. Id.
Jeffery does not dispute that his claim of ineffective assistance of trial counsel is procedurally defaulted due to the state habeas court’s application of
§ 9-14-48(d). He argues, however, that he can establish
both cause for the default and prejudice.
A.
Federal review of a procedurally defaulted claim is
available if a petitioner can show both “cause” for the
default and resulting prejudice. Harris, 874 F.3d at

App. 9
688. A “cause” is an objective factor external to the
defense that impeded the effort to raise the claim
properly in the state court. Id. “In order to establish
prejudice to excuse a default, the petitioner must show
that there is at least a reasonable probability that the
result of the proceeding would have been different absent the constitutional violation.” Raleigh v. Sec’y, Fla.
Dep’t of Corr., 827 F.3d 938, 957 (11th Cir. 2016) (quotation marks omitted). Prejudice alone is not enough
in the absence of a showing of cause. Id.
In Georgia, an attorney’s error in failing to raise a
claim at the motion-for-new-trial stage or on appeal
may provide cause to excuse a procedural default, so
long as that error meets the ordinary standard of constitutionally ineffective assistance. Id.; Williams v.
Turpin, 87 F.3d 1204, 1210 (11th Cir. 1996) (“A criminal
defendant has a constitutional right to effective representation by counsel at the motion for new trial stage
of Georgia’s Unified Appeal Procedure.”). To make a
successful claim of ineffective assistance of counsel, a
petitioner must show that (1) his counsel’s performance was deficient and (2) the deficient performance
prejudiced his defense. Strickland v. Washington, 466
U.S. 668, 687 (1984).
The proper measure of attorney performance is
reasonableness under prevailing professional norms.
Id. at 688. The inquiry is “whether counsel’s assistance
was reasonable considering all the circumstances.” Id.
Our review is “highly deferential,” presuming that
counsel’s performance was reasonable and making
“every effort” “to eliminate the distorting effects of

App. 10
hindsight . . . and to evaluate the conduct from counsel’s perspective at the time.” Id. at 689. “[B]ecause
counsel’s conduct is presumed reasonable, for a petitioner to show that the conduct was unreasonable, a
petitioner must establish that no competent counsel
would have taken the action that his counsel did take.”
Chandler v. United States, 218 F.3d 1305, 1315 (11th
Cir. 2000) (en banc).
An attorney may render ineffective assistance under Strickland when he fails to investigate and present
possible alibi testimony. See, e.g., Khan v. United
States, 928 F.3d 1264, 1278 (11th Cir.), cert. dismissed,
140 S. Ct. 339 (2019) (explaining that deficient performance may be shown where “defense counsel utterly
failed to investigate potential witnesses or secure their
testimony”). In Code v. Montgomery, for example, we
concluded that counsel was ineffective when he knew
the defendant’s “exclusive defense was based on an
alibi” but did not contact the two alibi leads the defendant had provided him and “terminated his investigation without determining whether the one witness he
contacted could provide an alibi.” 799 F.2d 1481, 1483–
84 (11th Cir. 1986).
B.
In proceedings below, Jeffery pointed to appellate
counsel’s alleged ineffective assistance as the cause for
the procedural default.3 While he does not expressly
3

Jeffery’s argument on appeal that the procedural default is
excused by ineffective assistance of trial counsel misunderstands

App. 11
make that same argument on appeal, he separately
contends, consistent with the second COA granted by
the district court, that appellate counsel was ineffective for failing to “raise[ ] the issue of trial counsel’s
failure to properly investigate and present the alibi
evidence” in the amended motion for a new trial or
on appeal. Appellant’s Br. at 26. Accordingly, Jeffery’s
claim of ineffective assistance of appellate counsel is,
effectively, coterminous with the question of whether
he has established cause and prejudice to overcome the
procedural default of his claim of ineffective assistance
of trial counsel.
Here, Jeffery has not established that appellate
counsel was ineffective for failing to raise an ineffective-assistance claim against trial counsel for failing to
investigate and present alibi testimony at trial. Although there is a circuit split as to whether the federal
courts must defer to a state court’s resolution of a claim
of ineffective assistance of counsel in the cause-andprejudice context, we need not resolve that dispute
because Jeffery’s ineffective-assistance-of-appellatecounsel claim fails even under de novo review. See
Sealey v. Warden, Ga. Diagnostic Prison, 954 F.3d 1338,

the inquiry. The state habeas court found that the ineffective-assistance-of-trial-counsel claim was barred due to Jeffery’s failure
to timely raise it after he obtained new counsel post-trial. See
O.C.G.A. § 9-14-48(d). Therefore, he must point to some other
external “cause” that justifies the failure to raise the issue at the
proper time, not simply a compelling claim of ineffective assistance of trial counsel. See Raleigh, 827 F.3d at 957 (prejudice
alone is not enough in the absence of a showing of cause).

App. 12
1365 n.16 (11th Cir. 2020) (declining to resolve this
conflict for the same reason).
Appellate counsel’s performance was not deficient
because there is no evidence that he knew or had reason to believe that there were potential alibi witnesses.
The state habeas court credited appellate counsel’s testimony that “no one ever told [him] that there were potential, critical witnesses in this case that should have
been used as an alibi or anything else.” See Nejad v.
Att’y Gen., State of Ga., 830 F.3d 1280, 1292 (11th Cir.
2016) (“Determining the credibility of witnesses is the
province and function of the state courts, not a federal
court engaging in habeas review.” (quotation marks
omitted)). And nothing in the record contradicts that
testimony. While trial counsel may have been aware of
potential alibi witnesses, there is no evidence that he
informed appellate counsel of these witnesses either
orally or in writing. In addition, appellate counsel testified that Jeffery, in written and oral correspondence,
never mentioned the names of potential alibi witnesses. Accordingly, this is not a case where counsel
failed to pursue leads provided by the defendant or
someone else. See Code, 799 F.2d at 1483–84; see also
Strickland, 466 U.S. at 691 (“Counsel’s actions are usually based, quite properly, on informed strategic
choices made by the defendant and on information supplied by the defendant.”).
Jeffery maintains that the alibi witnesses would
have been discovered had appellate counsel conducted
a “reasonable investigation.” But he does not identify
with any specificity what appellate counsel should

App. 13
have done, but failed to do, to conduct such an investigation. Nor does the record support Jeffery’s assertion.
Jeffery contends that the Georgia Bureau of Investigation file “contained some of these alibi witnesses information and information that discredits the timeline
set forth by the state at trial,” but it does not appear
that the contents of this file have been made a part of
the record, so we do not know what information the file
contained. Moreover, the GBI’s lead investigator testified at the state habeas hearing that, in speaking to
Noel and others during the investigation, he never
heard the names of Jeffery’s alibi witnesses Vankole
and Bailey.
That a reasonable investigation would not necessarily have turned up the alibi witnesses is also supported by the state habeas court’s factual findings with
regard to trial counsel. According to the state habeas
court, trial counsel was unable to get in touch with
Noel, whose house Jeffery claimed he had received a
ride from on the night of the murder, and trial counsel
tried but was unable to obtain any information about
the purported alibi witnesses from Jeffery or others.
Jeffery has not shown that these findings, which were
based on trial counsel’s testimony, were unreasonable
or clearly erroneous. And although we know that Jeffery’s alibi witnesses were capable of being found, since
they testified at the state habeas hearing, we do not
know the circumstances of how they were located by
post-conviction counsel. For that reason, we cannot
simply infer that the failure to locate these witnesses

App. 14
earlier was the result of an unreasonable investigation.
Without any showing that appellate counsel had
reason to believe that there were potential alibi witnesses who were not called at trial, or that appellate
counsel failed to take reasonable investigative steps
that he did not take, we cannot say that Jeffery has
overcome the presumption that appellate counsel’s
performance was reasonable. See Chandler, 218 F.3d
at 1315. Accordingly, Jeffery has not established either
cause to excuse the procedural default of his ineffective-assistance-of-trial-counsel claim or an independent claim of ineffective assistance of appellate counsel.
For these reasons, we affirm the district court’s denial of Jeffery’s § 2254 petition.4
AFFIRMED.

4
Jeffery’s argument that the state habeas court’s decision
was based on an unreasonable determination of the facts in light
of the evidence presented, see 28 U.S.C. § 2254(d)(2), appears to
relate to the state habeas court’s determination that the alibi witnesses’ testimony was not sufficient to corroborate an alibi for Jeffery. Like the district court, we express some concern about that
determination, but we ultimately need not address it because we
affirm on alternative grounds.

App. 15
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
WISDOM JEFFERY,

CIVIL ACTION NO.

Petitioner,

1:19-CV-251-CAP

v.
NATHAN BROOKS, Warden,
Respondent.
ORDER
(Filed Oct. 16, 2019)
This action is before the court on the report and
recommendation (“R&R”) of the magistrate judge [Doc.
No. 8] and the petitioner’s objections thereto [Doc. No.
10]. The R&R recommends denial of the petitioner’s
§ 2254 habeas petition and the grant of a certificate of
appealability (“COA”) with respect to two specific issues.
In his § 2254 petition, the petitioner asserted a
claim of ineffective assistance of counsel against both
trial and appellate counsel based on the failure to call
alibi witnesses. Pursuant to Williams v. Taylor, 529
U.S. 362 (2000), the magistrate judge reviewed the underlying state habeas court’s decision on these claims.
The Superior Court of Hancock County rejected the
claims because it found that neither trial counsel nor
appellate counsel were provided with the names of
the alibi witnesses the petitioner has now brought

App. 16
forward. The magistrate judge concluded that the petitioner failed to show the state habeas court erred, and
therefore, recommended that deference is owed to
those findings.
In his first objection, the petitioner argues that the
magistrate judge set the burden too high for the petitioner because he used the incorrect standard under
Williams v. Taylor. Specifically, the petitioner objects to
the magistrate judge’s statement that an incorrect decision of a state court is still entitled to deference.
The R&R cites Williams as follows:
In Williams v. Taylor, 529 U.S. 362 (2000), the
Supreme Court analyzed how federal courts
should apply § 2254(d). To determine whether
a particular state court decision is “contrary
to” then-established law, this Court considers
whether that decision “applies a rule that contradicts [such] law” and how the decision “confronts [the] set of facts” that were before the
state court. Id. at 405, 406. If the state court
decision “identifies the correct governing legal
principle” this Court determines whether the
decision “unreasonably applies that principle
to the facts of the prisoner’s case.” Id. at 413.
This reasonableness determination is objective, and a federal court may not issue a writ
of habeas corpus simply because it concludes
in its independent judgment that the state
court was incorrect. Id. at 410. In other words,
it matters not that the state court’s application of clearly established federal law was incorrect so long as that misapplication was

App. 17
objectively reasonable. Id. (“[A]n unreasonable application of federal law is different from
an incorrect application of federal law.”). Habeas relief contrary to a state court holding is
precluded “so long as fair-minded jurists could
disagree on the correctness of the state court’s
decision.” Richter, 562 U.S. at 102 (2011) (internal quotation marks omitted); see Landers
v. Warden, Atty. Gen. of Ala., 776 F.3d 1288,
1294 (11th Cir. 2015). In order to obtain habeas corpus relief in federal court, “a state
prisoner must show that the state court’s ruling on the claim being presented in federal
court was so lacking in justification that there
was an error well understood and comprehended in existing law beyond any possibility
for fairminded disagreement.” Harrington,
562 U.S. at 103.
R&R at 5 [Doc. No. 8]. The magistrate judge correctly
points out that the Supreme Court in Williams requires a federal habeas court to consider whether the
state habeas court’s decision was objectively reasonable. The petitioner agrees: “The standard is whether
the state court’s application of Supreme Court precedent is an objectively unreasonable decision.” Objections at 2 [Doc. No. 10]. To the extent that the
petitioner objects to the magistrate judge’s inclusion of
language from Williams regarding whether an “incorrect” decision may still be found “objectively reasonable,” the objection is OVERRULED.
Next, the petitioner objects to the level of deference afforded to the state habeas court’s order and

App. 18
factual findings with respect to the claim of ineffective
assistance of appellate counsel. In making this objection, the petitioner takes issue with the following quote
included in the R&R that is from the state habeas
court’s order:
This Court credits Mr. Steel’s testimony that:
“I could clearly tell you that no one ever told
me that there were potential, critical witnesses in this case that should have been used
as an alibi or anything else.”
Objections at 3 [Doc. No. 10]. The petitioner argues
that the quote is only a partial quote that has been
taken out of context, and that the exchange during
cross-examination of appellate counsel reveals that he
has no memory of whether he knew about the alibi witnesses. The petitioner then contends: “The pointy [sic]
that the state habeas court missed and the Report in
turn, is that trial counsel was aware of these witnesses
and did nothing.”
The basis for the finding that appellate counsel’s
conduct with respect to the alibi witnesses did not fall
outside the wide range of professional competent assistance was his lack of knowledge that alibi witnesses
existed. While the petitioner argues that trial counsel
was told of the alibi witnesses, he points to no evidence
on the record to support his claim that appellate counsel knew or was told about them. Thus, in the absence
of evidence that appellate counsel had any knowledge
that there had ever been potential alibi witnesses, the
finding that appellate counsel’s failure to raise ineffective assistance of trial counsel regarding the alibi

App. 19
witnesses was not deficient conduct is entitled to deference. The petitioner’s objection on this issue is
OVERRULED.
Finally, the petitioner objects to the magistrate
judge’s deference to the state habeas court’s finding
that the alibi witnesses he has identified would not
have changed the outcome of the trial. However, the
magistrate judge’s deference to the state habeas
court’s finding was to the conclusion that trial counsel
and appellate counsel were not ineffective for failing to
call witnesses that they either did not know about or
could not locate. The deference afforded by the magistrate judge did not go to the prejudice prong of the
state habeas court’s analysis. In fact, the magistrate
judge points out that had the claims of ineffective assistance of counsel turned on the prejudice prong of
Strickland v. Washington, 466 U.S. 668 (1984), they
may have been successful. Therefore, the magistrate
judge recommended the grant of a certificate of appealability on the claims of ineffective assistance of trial
and appellate counsel. Accordingly, the petitioner’s objections regarding deference to the finding of prejudice
has no merit and is OVERRULED.

App. 20
Based on the foregoing, the R&R [Doc. No. 8] is
ADOPTED as the order and opinion of this court.
SO ORDERED this 16th day of October, 2019.
/s/CHARLES A. PANNELL, JR.
CHARLES A. PANNELL, JR.
United States District Judge

App. 21
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
WISDOM JEFFERY,
Petitioner,
v.
NATHAN BROOKS,
Respondent.

:
:
:
:
:
:
:

CIVIL ACTION NO.
1:19-CV-251-CAP-JKL

FINAL REPORT AND RECOMMENDATION
(Filed Sep. 4, 2019)
A. Background and Factual Summary
Petitioner, Wisdom Jeffery, proceeding with counsel, challenges via 28 U.S.C. § 2254, the constitutionality of his Clayton County convictions for malice
murder, possession of a firearm during the commission
of a crime, and aggravated assault. The parties have
filed their briefs, and the matter is now ripe for consideration by the Court.
Petitioner was convicted after a jury trial, and the
court imposed a life without parole sentence plus five
years consecutive for the firearms violation. Petitioner
appealed, and the Georgia Supreme Court generally
affirmed Petitioner’s convictions and sentences, but vacated in relation to the issue of which of Petitioner’s
convictions should be merged and which should be

App. 22
vacated by operation of law. Jeffrey1 v. State, 770
S.E.2d 585 (Ga. 2015).2 After the remand, the trial
court imposed a sentence of life without parole for murder, twenty years concurrent for aggravated assault,
and five years consecutive for the firearms violation.
Petitioner next filed a petition for a writ of habeas
corpus in Hancock County Superior Court. [Doc. 6-1].
After an evidentiary hearing, the court denied relief,
[Doc. 6-3], and the Georgia Supreme Court denied Petitioner’s application for a certificate of probable cause
to appeal the denial of habeas corpus relief. [Doc. 6-5].
In generally affirming Petitioner’s convictions, the
Georgia Supreme Court provided an extensive description of the evidence presented at Petitioner’s trial.
Jeffrey, 770 S.E.2d at 586-87. Summarizing that discussion, Petitioner and his wife (the victim) had a tumultuous relationship, and Petitioner was known to
have beaten her. Petitioner’s wife had also obtained a
restraining order requiring Petitioner to stay away
from her. On the night of the murder, the victim called
1

Petitioner’s last name appears alternatively as “Jeffrey”
and “Jeffery” throughout the record. This Court employs the
spelling that appears in the petition.
2
The jury found Petitioner guilty of one count of malice murder, four counts of felony murder, four counts of aggravated assault and two counts of possession of a firearm during the
commission of a felony. The Georgia Supreme Court concluded
that the trial court had erred in merging certain counts for sentencing, as the four felony murder verdicts should not have been
merged with the malice murder as they stood vacated by operation of law, and the four underlying felonies were improperly
merged into the felony murder verdicts. Jeffrey, 770 S.E.2d. at
588.

App. 23
911, and responding police found Petitioner asleep at
the victim’s apartment and escorted him from the
property. Approximately an hour later, the police were
again dispatched to the apartment and found the victim dead from multiple shotgun blasts. After visiting a
friend’s home seeking shelter, Petitioner absconded
and was arrested eighteen months later in Ohio, having changed his appearance.
Although not mentioned by the Georgia Supreme
Court, it appears undisputed that right around the
time of her death, the victim made another 911 call.
According to the state habeas corpus court:
In the call, the victim said, “Get the hell out
the house. Get out the f – kin’ house, Wisdom.
Now. Get out the house. Get out.” The recording concludes with the victim asking for an officer to be sent to her apartment, starting to
give the 911 operator her address, and then
screaming loudly and the phone being hung
up. Officers responded soon thereafter and
found the victim dead of gunshot wounds and
no one else in the apartment.
[Doc. 6-6 at 5-6].
B. Legal Standard
Pursuant to 28 U.S.C. § 2254, a federal court may
issue a writ of habeas corpus on behalf of a person held
in custody pursuant to a judgment of a state court if
that person is held in violation of his rights under federal law. Id. § 2254(a). This power is limited, however.

App. 24
In general, a state prisoner who seeks federal habeas
corpus relief may not obtain that relief unless he first
exhausts his available remedies in state court or shows
that a state remedial process is unavailable or ineffective. Id. § 2254(b)(1). As to those claims that have been
“adjudicated on the merits in State court proceedings,”
a habeas corpus petition “shall not be granted with respect to [such a] claim . . . unless the adjudication of
the claim”
(1) resulted in a decision that was contrary
to, or involved an unreasonable application of,
clearly established Federal law, as determined
by the Supreme Court of the United States; or
(2) resulted in a decision that was based on
an unreasonable determination of the facts in
light of the evidence presented in the State
court proceeding.
This standard is “difficult to meet,” Harrington v.
Richter, 562 U.S. 86, 102 (2011), and “highly deferential,” demanding “that state-court decisions be given
the benefit of the doubt,” Woodford v. Visciotti, 537 U.S.
19, 24 (2002) (citation and internal quotation marks
omitted), and requiring the petitioner to carry the burden of proof, Cullen v. Pinholster, 563 U.S. 170, 181
(2011) (citing Visciotti, 537 U.S. at 25). In Pinholster,
the Supreme Court further held
that review under § 2254(d)(1) is limited to
the record that was before the state court that
adjudicated the claim on the merits. Section
2254(d)(1) refers, in the past tense, to a statecourt adjudication that “resulted in” a

App. 25
decision that was contrary to, or “involved” an
unreasonable application of, established law.
This backward-looking language requires an
examination of the state-court decision at the
time it was made. It follows that the record
under review is limited to the record in existence at that same time i.e., the record before
the state court.
Id.; see also Lockyer v. Andrade, 538 U.S. 63, 71-72
(2003) (holding that state court decisions are measured
against Supreme Court precedent at “the time the
state court [rendered] its decision.”).
In Williams v. Taylor, 529 U.S. 362 (2000), the Supreme Court analyzed how federal courts should apply
§ 2254(d). To determine whether a particular state
court decision is “contrary to” then-established law,
this Court considers whether that decision “applies a
rule that contradicts [such] law” and how the decision
“confronts [the] set of facts” that were before the state
court. Id. at 405, 406. If the state court decision “identifies the correct governing legal principle” this Court
determines whether the decision “unreasonably applies that principle to the facts of the prisoner’s case.”
Id. at 413. This reasonableness determination is objective, and a federal court may not issue a writ of habeas
corpus simply because it concludes in its independent
judgment that the state court was incorrect. Id. at 410.
In other words, it matters not that the state court’s application of clearly established federal law was incorrect so long as that misapplication was objectively
reasonable. Id. (“[A]n unreasonable application of

App. 26
federal law is different from an incorrect application of
federal law.”). Habeas relief contrary to a state court
holding is precluded “so long as fairminded jurists
could disagree on the correctness of the state court’s
decision.” Richter, 562 U.S. at 102 (2011) (internal quotation marks omitted); see Landers v. Warden, Atty.
Gen. of Ala., 776 F.3d 1288, 1294 (11th Cir. 2015). In
order to obtain habeas corpus relief in federal court, “a
state prisoner must show that the state court’s ruling
on the claim being presented in federal court was so
lacking in justification that there was an error well understood and comprehended in existing law beyond
any possibility for fairminded disagreement.” Harrington, 562 U.S. at 103.
In his petition, Petitioner raises two claims of ineffective assistance of counsel. The standard for evaluating claims of ineffective assistance of counsel is set
forth in Strickland v. Washington, 466 U.S. 668 (1984).
The analysis is two-pronged, and the Court may “dispose of the ineffectiveness claim on either of its two
grounds.” Atkins v. Singletary, 965 F.2d 952, 959 (11th
Cir. 1992); see Strickland, 466 U.S. at 697 (“There is no
reason for a court deciding an ineffectiveness claim . . .
to address both components of the inquiry if the [petitioner] makes an insufficient showing on one.”).
Petitioner must first show that “in light of all the
circumstances, the identified acts or omissions were
outside the wide range of professionally competent assistance.” Strickland, 466 U.S. at 690. The court must
be “highly deferential,” and must “indulge in a strong
presumption that counsel’s conduct falls within the

App. 27
wide range of reasonable professional assistance.” Id.
at 689. “Given the strong presumption in favor of competence, the petitioner’s burden of persuasion—though
the presumption is not insurmountable—is a heavy
one.” Fugate v. Head, 261 F.3d 1206, 1217 (11th Cir.
2001) (citation omitted). As the Eleventh Circuit has
stated, “[t]he test has nothing to do with what the best
lawyers would have done. Nor is the test even what
most good lawyers would have done.” Waters v.
Thomas, 46 F.3d 1506, 1512 (11th Cir. 1995) (en banc).
Rather, the inquiry is whether counsel’s actions were
“so patently unreasonable that no competent attorney
would have chosen them.” Kelly v. United States, 820
F.2d 1173, 1176 (11th Cir. 1987). Moreover, under
Strickland, reviewing courts must “allow lawyers
broad discretion to represent their clients by pursuing
their own strategy,” White v. Singletary, 972 F.2d 1218,
1221 (11th Cir. 1992), and must give “great deference”
to reasonable strategic decisions, Dingle v. Sec’y for
Dep’t of Corr., 480 F.3d 1092, 1099 (11th Cir. 2007).
In order to meet the second prong of the test, Petitioner must also demonstrate that counsel’s unreasonable acts or omissions prejudiced him. Strickland, 466
U.S. at 694. That is, Petitioner “must show that there
is a reasonable probability that, but for the counsel’s
unprofessional errors, the result of the proceeding
would have been different. A reasonable probability is
a probability sufficient to undermine confidence in the
outcome,” id., requiring “a substantial, not just conceivable, likelihood of a different result.” Cullen v. Pinholster, 563 U.S. 170, 190 (2011) (quotation and citation

App. 28
omitted). The two-prong, performance/prejudice standard of ineffective assistance of counsel articulated in
Strickland is likewise applicable to claims of ineffective assistance of appellate counsel. See Smith v. Robbins, 528 U.S. 259, 285 (2000).
C. Discussion
The undersigned has reviewed the pleadings and
exhibits and finds that the record contains sufficient
facts upon which the issues may be resolved. As petitioner has not made the showing required by 28 U.S.C.
§ 2254(e)(2) to entitle him to an evidentiary hearing,
the undersigned finds that no evidentiary hearing is
warranted, and the case is now ready for disposition.
1. Grounds One and Two—Petitioner’s
Claim that Trial and Appellate Counsel
were Ineffective Regarding Potential Alibi Witnesses
In his two grounds for relief, Petitioner contends
that his trial counsel was ineffective for failing to call
certain alibi witnesses at his trial and that appellate
counsel was ineffective for failing to raise this issue in
Petitioner’s motion for a new trial and on appeal. In
denying relief on these claims, the state habeas corpus
court described the evidence presented at the state habeas corpus hearing as follows:
Petitioner presented the testimony of Yetunde
Vankole and Bianca Bailey to this Court,
whom he contends could have established an

App. 29
alibi defense. Ms. Vankole and Ms. Bailey testified that, in August of 2010, they resided at
the house on High Grove Road (where Petitioner’s vehicle was eventually recovered)
with Chevette Jones, a woman named Elite
Noel, and Ms. Noel’s young son. Ms. Vankole
and Ms. Bailey testified that, early on the
morning the victim died, they were at the
High Grove Road house with Ms. Jones and a
girl named Shani. They testified that Petitioner arrived at the High Grove Road [house]
at approximately 1 a.m. or 1:30 a.m, and all
four of them drove Petitioner to a neighborhood off Campbellton Road, dropping him off
some time around 1:45 a.m. or 2 a.m. They testified that they stayed there that night, in
that it was their residence.
At the time of the victim’s murder, Ms.
Vankole, Ms. Bailey, Ms. Jones, and Shani all
knew Petitioner by name and he knew them
by name.
Petitioner next presented the testimony of
Issa Miller. Ms. Miller testified that she lived
a couple of houses down from the High Grove
Road house, and that—on the night of the victim’s murder—she spoke to her husband (who
was at her home) at approximately 1:30 a.m.
and heard Petitioner asking him for a ride.
Petitioner also presented the testimony of
Yolanda and Manny Haley. Ms. Haley testified
that Ms. McZick came to her house on the
night the victim was killed but she did not
know at what time, and that “I don’t know

App. 30
why or I don’t recall why” Ms. McZick came to
her house. Mr. Haley’s memory was stronger:
he learned from Ms. Haley that Ms. McZick’s
visit to their residence had to do with Petitioner’s case.
Agent Spurlock became aware of the High
Grove Road house because he found Petitioner’s vehicle there later in the day the victim was murdered. In an attempt to uncover
potential witnesses, Agent Spurlock met and
spoke with Elite Noel twice and spoke with
her brother, Sammy Johnson, about who lived
at the High Grove Road house. Ms. Noel and
Mr. Johnson indicated that they were the only
ones who lived there or stayed there. Agent
Spurlock also spoke with Ms. McZick. Ms.
McZick informed Agent Spurlock that Petitioner arrived at her house between 3:30 and
3:40 a.m. on August 11.
[Doc. 6-6 at 7-9 (citations to the record omitted)].
The state court also made the following findings of
fact regarding trial and appellate counsel.
Attorney Jim Michael was retained to represent Petitioner prior to his preliminary hearing and handled the case through the trial.
Mr. Michael has been licensed to practice law
in Georgia since 1995, and has practiced criminal defense almost exclusively. During his career, he estimated that he had handled
approximately 50 felony jury trials. During
Mr. Michael’s conversations with Petitioner,
Petitioner informed Michael “that he had gone

App. 31
to a location and that he had gotten a ride
from some individuals” to Ms. McZick’s house.
However, Petitioner informed Mr. Michael
that he did not “know who these people were,”
and said he could not provide him with those
names. After discussing the case with several
other individuals, Mr. Michael concluded that
“[n]obody else knew who these people were.
Nobody gave me any names nobody gave me
any contact information.” Mr. Michael’s repeated attempts to get in touch with Elite
Noel were fruitless in light of it having been
almost two years since the incident date when
he began representing Petitioner. Mr. Michael
spoke with Mr. and Ms. Haley, and also Ms.
Miller about whether anyone was with Petitioner close-in-time to the victim’s murder;
however, no one was able to provide any
names of any such individual. Had they provided such names, Mr. Michael would have
met and spoke with those individuals, vetted
them, and—if he found them credible—
call[ed] them as witnesses at trial. Mr. Michael was, however, able to speak to Ms.
McZick, who—identical to what she informed
Agent Spurlock approximately two years
prior—informed him that Petitioner came to
her house at approximately 3:30 a.m. to 4 a.m.
on August 11.
Attorney Brian Steel represented Petitioner
on appeal. Mr. Steel has been licensed to practice law in Georgia since 1991 and practices
criminal defense. In Mr. Steel’s varied career,
he has handled a multitude of felony jury trials, including death penalty cases, and more

App. 32
than 200 appeals in Georgia alone, many of
them in murder cases. Neither Petitioner, nor
anyone on Petitioner’s behalf, brought to Mr.
Steel’s attention the names of Ms. Vankole,
Ms. Bailey, Ms. Jones, or an individual named
“Shani.” This Court credits Mr. Steel’s testimony that: “I could clearly tell you that no one
ever told me that there were potential, critical
witnesses in this case that should have been
used as an alibi or anything else.” Had Mr.
Steel been made aware of the existence of
those individuals, he would have vetted them
to determine whether Petitioner had a viable
alibi defense, and—if he found it credible—
would have subpoenaed them to testify at Petitioner’s motion for new trial.
[Doc. 6-6 at 9-11 (citations to the record omitted)].
After identifying the proper standard for evaluating claims of ineffective assistance of counsel under
Strickland discussed above, the state court made the
following conclusions with respect to Petitioner’s claim
of ineffective assistance of appellate counsel.
Petitioner has not carried his burden to satisfy Strickland. He has not shown that appellate counsel’s performance was deficient in
any of the instances alleged, nor has he established the requisite prejudice.
An attorney cannot be ineffective for “failing”
to call a potential alibi witnesses of whom the
attorney is not informed. Lewis v. State, 755
S.E.2d 156 (Ga. 2014). . . . This Court has
credited Mr. Steel’s testimony that he was not

App. 33
informed of the names of Petitioner’s supposed “alibi” witnesses. Because he was not
aware of their existence, he was not ineffective for not calling them at the motion for new
trial.
Further, an attorney is not ineffective because
he does not call additional witnesses whose
vague testimony cannot corroborate his client’s alibi. Palmer v. State, 560 S.E.2d 11 (Ga.
2002). . . . This Court finds that, when viewed
in tandem with the evidence at trial, the testimony of Ms. Vankole and Ms. Bailey would
not have established an alibi. Six years after
the victim’s murder, Ms. Vankole and Ms. Bailey testified that they saw Petitioner sometime around 1:00 a.m. to 1:30 a.m., then drove
him to a neighborhood [off ] Campbellton
Road (which was Ms. McZick’s neighborhood),
dropping him off sometime between 1:45 a.m.
and 2 a.m. However, the victim in her second
911 call at 1:58 a.m.—mere moments before
her death—clearly and unequivocally addressed her attacker as “Wisdom,” and told
her attacker several times that he needed to
“get out the house,” before she began screaming. Further, evidence at trial established that
the victim’s apartment was a mere two miles
from the High Grove Road house. Finally, Ms.
McZick testified that she spoke with Yolanda
Haley between 2:15 and 2:30 a.m., at which
point she learned there had been an “incident”
or “altercation” between Petitioner and the
victim. Ms. McZick also testified that Petitioner arrived at her residence between 3:30

App. 34
a.m. and 4 a.m.—not between 1:30 and 2 a.m.,
as Vankole and Bailey indicated.
Additionally, Agent Spurlock, close-in-time to
the victim’s murder—met and spoke with Ms.
McZick, who indicated that Petitioner arrived
at her residence between 3:30 a.m. and 4 a.m.
on August 11. Ms. McZick corroborated this
timeline to Mr. Michael almost two years
later, and then at trial.
Ms. McZick’s statements to authorities happened close-in-time to the murder; Ms. Bailey’s and Ms. Vankole’s testimony are the
byproduct of memories almost seven years
old.
In light of the testimony adduced at trial, this
Court finds that the testimony of Ms. Vankole
and Ms. Bailey is not sufficient to corroborate
an alibi for Petitioner. Hence, even had Mr.
Steel known of the witnesses, the Court finds
that they would not have corroborated an alibi. Petitioner’s claim of ineffective assistance
of appellate counsel provides no basis for relief.
[Id. at 11-14].
The state court further concluded that Petitioner’s
claim of ineffective assistance of trial counsel based on
his failure to call the alibi witnesses was procedurally
barred and that Petitioner could not establish cause
and prejudice to excuse the default because he failed
to establish that his appellate counsel had been ineffective and because, as the court discussed above, the

App. 35
state court concluded that the alibi witness testimony
was not convincing. [Id. at 14-15].
Petitioner contends that the state court’s conclusion is not entitled to deference under § 2254(d). However, Petitioner’s arguments focus mostly on the state
court’s finding of no prejudice by attempting to demonstrate that the alibi evidence that he presented at the
state habeas corpus hearing was (1) consistent with
other evidence indicating that someone other than Petitioner killed the victim and (2) established a reasonable probability that, had that evidence been
presented at Petitioner’s trial, the outcome of the trial
would have been different. Petitioner has not, however,
made a convincing argument that the state court erred
in concluding that trial counsel and appellate counsel
were not ineffective for failing to call witnesses that
they either did not know about or could not locate. Petitioner’s argument on that issue is limited to the following: “It was professionally unreasonable for trial
counsel to not investigate these witnesses and the circumstances of the alibi. His failure to do so prevent
[sic] him from calling the witness presented at the habeas evidentiary hearing at trial.” [Doc. 1-1 at 22]. The
undersigned concludes, however, that the state court’s
conclusion that appellate counsel cannot be faulted for
failing to call witnesses about which he was never informed was reasonable both in light of the facts and as
an application of law as discussed by the United States
Supreme Court.
The undersigned recognizes that the state habeas
corpus court concluded that Petitioner’s ineffective

App. 36
assistance of counsel claim was unavailing because it
was procedurally barred and did not specifically hold
that trial counsel was not deficient for failing to present the testimony of witnesses that he could not locate. However, the state court found that (1) Petitioner
informed trial counsel that he did not know who the
potential alibi witnesses were, (2) none of the other
people that trial counsel talked to could provide him
contact information regarding the potential alibi witnesses, (3) had he been provided with contact information, trial counsel would have met and spoke with
the witnesses and called them to testify if their testimony would have been helpful. Based on the testimony
presented at the state habeas corpus hearing, none of
these findings are unreasonable in light of the evidence
presented, and as Petitioner has failed to present clear
and convincing evidence to the contrary, this Court
must presume that the state court’s findings are correct. 28 U.S.C. § 2254(e)(1). Based on those findings,
this Court must conclude that trial counsel was not ineffective for failing to present the testimony of witnesses that he could not locate after a reasonable
investigation.
In Holley v. Secretary, Florida Department of Corrections, 719 Fed. Appx. 962 (11th Cir. 2017), the Eleventh Circuit confronted a materially identical claim.
Trial counsel testified at Holley’s state post-conviction
hearing that he could not locate an alibi witness. Id. at
968-69. “The state court found this testimony credible,
and . . . [t]he district court properly accepted the state
court’s credibility determination.” Id. at 969 (citing

App. 37
Baldwin v. Johnson, 152 F.3d 1304, 1316 (11th Cir.
1998)). Based on the state court’s findings, the Eleventh Circuit held that “it does not appear that counsel’s performance fell below the wide range of
competence demanded of attorneys in criminal cases.”
Id. As this Court is bound by the state court’s findings
of fact, the undersigned has no basis upon which to
conclude that trial counsel was ineffective for failing to
present witnesses that he could not find after making
reasonable efforts to locate them.
Accordingly, the undersigned concludes that Petitioner has failed to demonstrate that his trial or appellate counsel was ineffective.
D. Certificate of Appealability
Having so held, however, the undersigned
acknowledges some concern over this outcome. Notably, had Petitioner’s claims turned on Strickland’s prejudice prong, this Court might have concluded that the
alibi evidence presented at the state habeas corpus
hearing, which seems to indicate that Petitioner was
miles away from the victim’s home at the time of the
murder, was sufficient to undermine confidence in the
outcome of Petitioner’s trial, especially in light of other
evidence presented at Petitioner’s trial that supported
the theory that someone other than Petitioner killed
the victim. The undersigned further credits—to a limited degree—Petitioner’s arguments that the state habeas corpus court’s analysis of his alibi evidence was
somewhat confusing. Accordingly, pursuant to 28

App. 38
U.S.C. § 2253(c)(2), the undersigned believes that a
Certificate of Appealability should be granted on the
issues of (1) whether trial counsel was ineffective for
failing to present alibi testimony and (2) whether appellate counsel was ineffective for failing to raise a
claim of ineffective assistance of trial counsel for failing to present alibi testimony.
E. Conclusion
For the reasons stated, IT IS RECOMMENDED
that the instant habeas corpus petition be DENIED
and that this action be DISMISSED.
IT IS FURTHER RECOMMENDED that a COA
be GRANTED. The Clerk is DIRECTED to terminate
the referral to the undersigned.
SO RECOMMENDED, this 4th day of September, 2019.

